APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
————
DOCKET NO: 19-10461
————
IN THE MATTER OF VALUEPART INCORPORATED,
Debtor,
JINIL STEEL COMPANY, LIMITED,
Appellant,
V.
VALUEPART, INCORPORATED; DENNIS FAULKNER, AS
TRUSTEE OF THE CREDITOR TRUST,
Appellees,
————
(March 20, 2020)
————
Before
CLEMENT,
HIGGINSON,
ENGELHARDT, Circuit Judges.

and

EDITH BROWN CLEMENT, Circuit Judge:1
This appeal arises from a district court decision affirming the bankruptcy court’s rejection of Jinil Steel
Company’s (“Jinil”) late-filed proof of claim as related to
ValuePart, Inc.’s (“ValuePart”) Chapter 11 bankruptcy
proceedings. Because Jinil has failed to show that its
1

Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except under the limited circumstances set forth in 5TH CIR. R.
47.5.4.

2a
year-long delay in filing its proof of claim was the result
of “excusable neglect,” we AFFIRM the district court’s
judgment.
I.
Jinil is a South Korean steel company. Jinil sold steel
products on credit to another Korean company, WooSung
Hitech (“WooSung”), which in turn sold products to ValuePart, a U.S. company. In 2014, WooSung began “delaying” its payments to Jinil. Jinil became concerned
about WooSung’s financial condition and cut off future
credit sales. Because ValuePart relied on the products it
received from WooSung, ValuePart signed a guarantee
agreement, promising to pay Jinil directly for the steel
WooSung purchased from Jinil if WooSung failed to
make its required payments. The guarantee was signed
on September 3, 2015, and was “valid for 12 months,
starting from the signing date.”
A few months later, WooSung again defaulted on its
payments to Jinil. WooSung was apparently “financially
shaken” because it was not “receiving payments from
ValuePart.” Because ValuePart was obligated under the
guarantee agreement to pay Jinil directly when
WooSung defaulted, Jinil began making extensive “efforts to get paid[,] by numerous demands and contacts to
ValuePart.” At some point in 2015, “[Jinil] had no choice
[but] to hire an attorney” to collect on WooSung’s debts
from ValuePart. In the years 2015, 2016, and 2017, the
record reflects that Jinil hired at least one Italian law
firm to bring civil and criminal claims against ValuePart.
WooSung filed for bankruptcy in Korea in June 2016.
Soo Hong Lee, Jinil’s managing director and general
manager, filed a claim in the Korean court on Jinil’s behalf, but the record is silent as to whether Jinil recovered
anything from WooSung’s eventual liquidation. In October 2016, Mr. Lee began an extended leave of absence for

3a
He did not return to work until

“personal reasons.”
March 2018.
On October 27, 2016, ValuePart filed for bankruptcy in
the Northern District of Texas. The bar date established
for filing proofs of claims was March 7, 2017 (“Bar
Date”). ValuePart’s claims agent sent a notice of ValuePart’s bankruptcy and a proof of claim form (“Notice”)
to Jinil by first-class mail in November 2016. The Notice
warned: “A CREDITOR WHO FAILS TO FILE A
PROOF OF CLAIM ON OR BEFORE THE DEADLINE LISTED BELOW MAY BE BARRED FROM
ASSERTING ITS CLAIMS AGAINST THE DEBTOR.” The Bar Date was prominently displayed in a separate text box in the middle of the second page of the Notice, which stated in bold font that the “DEADLINE
AND METHOD FOR FILING PROOFS OF CLAIM[S]
. . . has been set for MARCH 7, 2017.”
On January 4, 2017, Jinil’s accounting manager, Chun
Young Hwa, sent ValuePart’s claims agent an email w ith
some questions about the Notice Jinil had received. Mr.
Hwa asked if Jinil was “a creditor or an entity [with] a
right of [a] creditor” in ValuePart’s bankruptcy and
asked “why the court sent” Jinil the Notice. Two days
later, the claims agent responded to Mr. Hwa’s email, explaining how Jinil could file a proof of claim and once
again stating that the “Bar Date for filing a Proof of
Claim is March 7, 2017.” Jinil did not mention ValuePart’s bankruptcy or the Notice to its Italian counsel.
Shortly thereafter, on January 13, 2017, WooSung
filed a proof of claim in the ValuePart bankruptcy for
$2.2 million in unpaid invoices. ValuePart objected to
WooSung’s proof of claim. Because WooSung failed to
respond to the objection, the bankruptcy court sustained

4a
the objection in October 2017.2
Despite Mr. Hwa’s January 2017 correspondence with
ValuePart’s claims agent and Jinil’s representation by
Italian counsel in other matters concerning ValuePart,
the bankruptcy court did not receive Jinil’s proof of claim
(dated February 28, 2018) until March 6, 2018, approximately one year after the Bar Date. The proof of claim
came after the son of Jinil’s owner—who had studied in
the United States—contacted the claims agent in late
February 2018 regarding Mr. Hwa’s email from the prior
year. Then, on June 25, 2018, Jinil moved to allow its
late-filed proof of claim, arguing that the Korean- English language barrier had prohibited it from “comprehend[ing] a single mailed notice in English” and that “its
failure to fully understand US bankruptcy laws
amount[ed] to excusable neglect.”
The bankruptcy court held a hearing on Jinil’s motion
on July 30, 2018. A few days later, the bankruptcy court
denied Jinil’s motion, finding that Jinil had failed to establish excusable neglect. Jinil appealed to the district
court, and the district court affirmed the judgment. Jinil
then appealed to this court.
II.
“Our review is . . . focused on the actions of the bankruptcy court.” Official Comm. of Unsecured Creditors v.
Moeller (In re Age Ref., Inc.), 801 F.3d 530, 538 (5th Cir.
2015). We review the bankruptcy court’s refusal to allow
a late-filed proof of claim for abuse of discretion. Pioneer
Inv. Servs. Co. v. Brunswick Assocs. Ltd. P’ship, 507
U.S. 380, 398−99 (1993). The bankruptcy court’s component findings of fact are reviewed for clear error, and its
It appears that WooSung was liquidated by the time ValuePart’s objection was filed, but the record does not definitively say so.
2

5a
conclusions of law de novo. In re Age Ref., Inc., 801 F.3d
at 538.
III.
A.
In a Chapter 11 bankruptcy, an unsecured creditor
whose claim is not listed on the debtor’s schedule and
who fails to file a timely proof of claim “shall not be
treated as a creditor with respect to such claim for the
purposes of voting and distribution.” Fed. R. Bankr. P.
3003(c)(2). But, even after the filing deadline has passed,
the bankruptcy court has discretion to permit a creditor
to file a proof of claim “where the failure to act [i.e., to file
earlier] was the result of excusable neglect.” Fed. R.
Bankr. P. 9006(b)(1). “Excusable neglect is the failure to
timely perform a duty due to circumstances that were
beyond the reasonable control of the person whose duty
it was to perform.” Omni Mfg., Inc. v. Smith (In re
Smith), 21 F.3d 660, 666 (5th Cir. 1994) (cleaned up). In
evaluating whether to excuse a late filing, a court considers several factors laid out in the Supreme Court’s decision in Pioneer, which include: “the danger of prejudice
to the debtor, the length of the delay and its potential
impact on judicial proceedings, the reason for the delay,
including whether it was within the reasonable control of
the movant, and whether the movant acted in good faith.”
507 U.S. at 395. The burden to show excusable neglect is
on the movant—i.e., the creditor seeking to file a late
claim. Bank of Am., N.A. v. Allen Capital Partners,
L.L.C. (In re DLH Master Land Holding, L.L.C.), 464 F.
App’x 316, 318 (5th Cir. 2012).
On appeal, Jinil argues that its failure to file a timely
proof of claim was “excusable neglect” because (1) its
employees did not speak English; (2) it believed that ValuePart had included its debt to Jinil on the schedules, in
light of Jinil’s Italian claims against ValuePart; and (3) it

6a
was relying on the proof of claim that WooSung had filed
for amounts that ValuePart owed on the same invoices.
The bankruptcy court made three key findings of fact.
First, at least two months before the Bar Date, Jinil received actual notice of ValuePart’s bankruptcy petition,
along with the proof of claim form. This finding was supported by Mr. Hwa’s email to ValuePart’s claims agent
on January 4, 2017—sixty days before the Bar Date—
requesting more information on submitting a proof of
claim. Second, Jinil representatives had a sufficient understanding of English to be “aware[] of the notices . . .
and the fact that Jinil Steel may have to take additional
steps to assert a claim against [ValuePart].” The court
supported this finding with Mr. Hwa’s email, as well as
the email correspondence between the claims agent and
the son of Jinil’s owner nearly a year later. Third, Jinil’s
failure to file a timely proof of claim was not because Jinil
was relying on WooSung’s claim. The court reasoned
that the evidence did not support such an assertion, and,
given that the person responsible for handling the ValuePart claim—Mr. Lee—was on a leave of absence, “he
could not have made a decision not to file a proof of claim
in reliance on the WooSung [proof of claim].”
We hold that the bankruptcy court’s findings of fact
were not clearly erroneous. Clear error means that the
reviewing court is “left with the definite and firm conviction that a mistake has been committed.” Anderson v.
City of Bessemer, 470 U.S. 564, 573 (1985) (quoting United States v. U.S. Gypsum Co., 333 U.S. 364, 395 (1948)).
If the bankruptcy court’s “account of the evidence is
plausible in light of the record viewed in its entirety, the
court of appeals may not reverse it even though convinced that . . . it would have weighed the evidence differently.” Id. at 574. First, we agree that Jinil undisputedly
received the Notice—Mr. Hwa’s email to the claims
agent is proof of this. Further, Mr. Hwa’s email demon-

7a
strates that, prior to the Bar Date, at least one person at
Jinil understood that Jinil was required to submit a proof
of claim in ValuePart’s bankruptcy if Jinil believed itself
to be a creditor. Moreover, the February 2018 email to
ValuePart’s claims agent from the English-speaking son
of Jinil’s owner implores us to question why someone at
Jinil did not involve him earlier. As for the bankruptcy
court’s finding of fact that Jinil did not rely on
WooSung’s timely-filed proof of claim, we agree that the
record does not support Jinil’s argument that it did so.
As the bankruptcy court noted, Mr. Lee was not around
to make the decision to rely on WooSung’s proof of claim.
And there is no evidence that he instructed anyone at Jinil to rely on WooSung’s proof of claim.
Although Jinil does not dispute that the Pioneer factors apply here, it contests the bankruptcy court’s determinations that “[t]he reasons offered for the delay [in Jinil’s filing of its proof of claim] were not convincing and
certainly were within [its] reasonable control”; that
“[a]llowing a claim in excess of $1.5 million will undoubtedly prejudice [ValuePart] and the other unsecured creditors”; and that “allowing claims to be filed [one year]
past the Bar Date would have a significant effect on judicial proceedings.” We agree that the bankruptcy court
did not abuse its discretion in finding that “the Pioneer
factors weigh against a finding of excusable neglect.”
We do not find the reasons offered for Jinil’s delay in
filing—i.e., (1) the Korean-English language barrier; (2)
that ValuePart “should have known” to include Jinil on
its schedules because of the parties’ Italian litigation; and
(3) that Jinil was relying on WooSung’s claim—to be persuasive. As explained above, reasons (1) and (3) are unconvincing because, respectively: the email correspondence between ValuePart’s claims agent and (i) Mr. Hwa
and (ii) the son of Jinil’s owner show that at least one

8a
person at Jinil, as well as someone closely tied to Jinil,
had a sufficient grasp of English, and the record does not
show that Mr. Lee sought to rely on WooSung’s proof of
claim. Reason (2) is refuted by the fact that the Notice
explicitly stated that Jinil could view ValuePart’s schedules at any time. To determine whether it was listed on
the schedules, all Jinil had to do was look: “[ValuePart]
will file a schedule of creditors pursuant to Federal Rule
of Bankruptcy Procedure 1007. [Jinil] may review the
schedules at the bankruptcy clerk’s office or online at
www.upshotservices.com/Valuepart.”
We also find that the delay in filing was within Jinil’s
“reasonable control.” Based on the bankruptcy court’s
findings of fact, we believe Jinil had all the information it
needed to file a timely proof of claim. Jinil has not shown
that its failure to do so was based on factors akin to incarceration or ill health. See Pioneer, 507 U.S. at 393.
Finally, we agree with the bankruptcy court that allowing Jinil’s approximately $1.5 million and one-yearlate claim will prejudice ValuePart and the other unsecured creditors and could have a significant effect on future judicial proceedings. As this court has held, “in virtually any bankruptcy proceeding, time is the essence of
prejudice.” Pyramid Mobile Homes, Inc. v. Speake (In re
Pyramid Mobile Homes, Inc.), 531 F.2d 743, 746 (5th
Cir. 1976). And we have found that a bankruptcy court
did not abuse its discretion in denying a creditor’s motion
to file its proof of claim just forty-two days late. See In re
DLH Master Land Holding, L.L.C., 464 F. App’x at
318−19; see also Kollinger v. Hoyle (In re Kollinger), 551
F. App’x 104, 108 (5th Cir. 2013) (“[N]o excuse justifies
failing to file a brief for ten months.”). Thus, the bankruptcy court did not abuse its discretion in denying Jinil’s
motion to allow its late-filed claim.

9a
B.
Jinil also stresses an argument that was not included
in its motion for allowance of its proof of claim: that its
claim should be considered timely because the Notice
was not served in accordance with the Hague Service
Convention. See Convention on the Service Abroad of
Judicial and Extrajudicial Documents in Civil and Commercial Matters, Nov. 15, 1965, 20 U.S.T. 361, 658
U.N.T.S. 163 [hereinafter Hague Service Convention].
The bankruptcy court did not have the benefit of any
briefing on this argument. Instead, Jinil’s attorney mentioned the Hague Service Convention for the first time at
the hearing on Jinil’s motion to allow its late-filed proof
of claim. The attorney noted that both the United States
and South Korea are parties to the Convention, that the
Convention requires “judicial and extrajudicial documents . . . first be sent over to the Central Authority administered by the Supreme Court of South Korea,” and
that the Convention also requires “that any English documents or any foreign language documents . . . be translated into Korean.” But he failed to cite any relevant
cases interpreting the scope of the Convention or its applicability to bankruptcy notices.
Thus, we hold that Jinil has forfeited its argument
with regard to the Hague Service Convention because it
failed to properly “rais[e] [the argument] to such a degree that the trial court may rule on it.” Butler Aviation
Int’l, Inc. v. Whyte (In re Fairchild Aircraft Corp.), 6
F.3d 1119, 1128 (5th Cir. 1993), abrogated on other
grounds by Tex. Truck Ins. Agency, Inc. v. Cure (In re
Dunham), 110 F.3d 286, 288–89 (5th Cir. 1997); see also
MaddenSewell, LLP v. Mandel, 498 B.R. 727, 729 (E.D.
Tex. 2013) (“[L]itigants [must] properly present and brief

10a
the grounds for claims, defenses, or objections . . . .”).3
IV.
For the foregoing reasons, we AFFIRM the district
court’s judgment affirming the bankruptcy court’s holding that Jinil has not shown excusable neglect.

3

Jinil makes two other arguments in its briefing: (1) that the
bankruptcy court’s decision denied it due process, and (2) that
WooSung’s proof of claim should be deemed an “informal”
proof of claim by Jinil, or, alternatively, that Jinil’s proof of
claim was an “amended” version of WooSung’s timely proof of
claim. These claims were not raised to the bankruptcy court,
so they are forfeited.

11a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
————
DOCKET NO: 19-10461
————
IN THE MATTER OF VALUEPART INCORPORATED,
Debtor,
JINIL STEEL COMPANY, LIMITED,
Appellant,
V.
VALUEPART, INCORPORATED; DENNIS FAULKNER, AS
TRUSTEE OF THE CREDITOR TRUST,
Appellees,
————
(April 28, 2020)
————
On Petition For Rehearing and Rehearing
En Banc
(Opinion 3/20/20, 5 Cir.)
Before CLEMENT, HIGGINSON, and
ENGELHARDT, Circuit Judges.
PER CURIAM:
(x) The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R.
APP. P. and 5th CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.

12a
( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of
the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R.
APP. P. and 5th CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.
( ) A member of the court in active service having requested a poll on the reconsideration of this
cause en banc, and a majority of the judges in active service and not disqualified not having voted
in favor, Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Edith Brown Clement
UNITED STATES CIRCUIT JUDGE

13a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
————
Case No. 16-34169-HDH-11
————
IN RE VALUEPART, INC., DEBTOR.
————
Civil Action No. 3:18-CV-2239-C
————
JINIL STEEL CO., LTD.,

Appellant,

v.
VALUEPART, INC., AND DENNIS FAULKNER, AS TRUSTEE
OF THE CREDITOR TRUST,
Appellees.
————
(April 2, 2019)
————
Appeal from the United States Bankruptcy Court
for the Northern District of Texas
HARLIN D. HALE, Bankruptcy Judge, presiding
ORDER
CAME BEFORE THIS COURT FOR CONSIDERATION Appellant’s Appeal from the Order in the Bankruptcy Court entered on August 6, 2018, that denied Appellant’s Motion for Allowance of Claim.

14a
Conclusions of law reached by the Bankruptcy Court
are subject to de novo consideration by this Court. In re
Luce, 960 F.2d 1277, 1280 (5th Cir. 1992); see also AT&T
Universal Card Servs. v. Mercer (In re Mercer), 246 F.3d
391, 402 (5th Cir. 2001) (stating that the district court reviews the bankruptcy court’s factual findings for clear
error and the bankruptcy court’s legal conclusions and
mixed questions of fact and law de novo).
Findings of fact are reviewed for clear error. “[A] finding is clearly erroneous when although there is evidence
to support it, the reviewing court on the entire evidence
is left with the definite and firm conviction that a mistake
has been committed. . . . This standard plainly does not
entitle a reviewing court to reverse the finding of the
trier of fact simply because it is convinced that it would
have decided the case differently. . . . If the [bankruptcy] court’s account of the evidence is plausible in light of
the record viewed in its entirety, the [reviewing court]
may not reverse it even though convinced that had it
been sitting as a trier of fact, it would have weighed the
evidence differently. Where there are two permissible
views of the evidence, the factfinder’s choice between
them cannot be clearly erroneous. Matter of Webb, 954
F.2d 1102, 1104 (5th Cir. 1992) (quoting Anderson v. City
of Bessemer City, 470 U.S. 564, 573-74 (1985)). The following issues are presented by Jinil Steel Co., Ltd. on
appeal as points of error:
(1) Did the Bankruptcy Court legally err by failing to
consider that legal process which was served upon Jinil
Steel, a Korean company, regarding a matter documented in the Korean language and executed under Korean
law, was not required to be delivered in compliance with
the Hague Service Convention?
(2) Did the Bankruptcy Court err in finding that Jinil
Steel had not demonstrated “cause” or “excusable ne-

15a
glect” sufficient to allow Jinil Steel’s late filed proof of
claim to be deemed timely filed?
a. As an element of this issue, did the Bankruptcy
Court legally err by incorrectly weighing the burden of
proof?
b. As an element of this issue, did the Bankruptcy
Court legally err when it failed to consider the distinct
“for cause” standard of Bankruptcy Rule 3003?
(3) Did the Bankruptcy Court err in concluding that
the timely filed proof of claim of WooSung Hitech, Ltd.
did not amount to an “informal claim?”
(4) Did the Bankruptcy Court err in concluding that
Woo Sung Hitech, Ltd. had not filed a timely claim proof
of claim “on behalf of” Jinil Steel and which could not be
amended by Jinil Steel?
This Court has considered carefully the written arguments and the record in this case and is of the opinion
that the well-reasoned and thorough decision of the
Bankruptcy Court should be affirmed.1 The findings of
fact are not clearly erroneous. There is no reversible error in the conclusions of law.
For the reasons argued by the Appellee in its Brief,
and the Bankruptcy Court’s well-reasoned Order, it is
ordered that the holding of the Bankruptcy Court is AFFIRMED.

1

The Bankruptcy Court specifically determined that Jinil
was not entitled to a finding of excusable neglect for the latefiled claim (over one year after the bar date). See Pioneer
Inv. Servs. Co. v. Brunswick Assocs. L.P., 507 U.S. 380
(1993) (must be a showing of excusable neglect for a late-filed
claim in a Chapter 11 bankruptcy case). The Bankruptcy
Court also determined that Appellant could not rely upon
and adopt the proof of claim filed by Woo Sung HiTech.

16a
Dated this 2 day of April, 2019.
nd

SAM R. CUMMINGS
SENIOR UNITED STATES DISTRICT JUDGE

17a
APPENDIX D
UNITED STATES BANKRUPTCY COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
————
Case No. 16-34169-HDH-11
————
IN RE VALUEPART, INC., DEBTOR.
————
(Aug. 6, 2018)
————
ORDER DENYING MOTION
FOR ALLOWANCE OF CLAIM
The following constitutes the ruling of the court and
has the force and effect therein described.
Signed August 6, 2018
/s/ Harlin Hale
United States Bankruptcy Judge
On June 25, 2018, Jinil Steel Co., Ltd., (“Jinil Steel”)
filed the Motion for Allowance of Claim of Jinil Steel
and to Deem Proof of Claim #225 as Timely Filed
[Docket No. 850] (the “Motion”). ValuePart, Inc., (the
“Debtor”) objected, as did the Creditor Trustee.1 On July 30, 2018, the Court held an evidentiary hearing on the
Motion. The Debtor filed for bankruptcy on October 27,
2016, and the bar date established in this case for filing
proofs of claim was March 7, 2017 (the “Bar Date”). Jinil
Steel filed its proof of claim on March 6, 2018, nearly one
year after the Bar Date. Through the Motion, Jinil Steel
now seeks allowance of its claim as timely under the doc-

18a
trine of “excusable neglect.” Jinil Steel requested a special setting for a hearing on the Motion because its witness, Soo Hong Lee (“Mr. Lee”), a Managing Director
for Jinil Steel, would be visiting Dallas from Korea. The
parties agreed that the July 30 hearing on the Motion
would be limited to the threshold “excusable neglect” issue, and then, if the claim was deemed timely, the actual
merits of the claim would be considered on a later date in
a separate hearing.
The controlling case on whether a late-filed proof of
claim in a Chapter 11 bankruptcy case may be deemed
timely under Federal Rule of Bankruptcy Procedure
9006(b)(1) is Pioneer Inv. Servs. Co. v. Brunswick Assocs. L.P., 507 U.S. 380 (1993). Under Pioneer, to have a
late-filed claim in a Chapter 11 bankruptcy case deemed
timely, there must be a showing of “excusable neglect.”
Id. at 389. In determining whether a party’s neglect of a
deadline is excusable, courts are to consider several factors: the danger of prejudice to the debtor, the length of
delay and its potential impact on judicial proceedings, the
reason for the delay (including whether it was within the
reasonable control of the movant), and whether the movant acted in good faith. Id. at 395.
The facts relevant to this dispute are relatively
straightforward. The Debtor’s claims and noticing agent
provided Jinil Steel with notice of the bankruptcy filing,
which included the Bar Date, and a proof of claim form.
See Debtor’s Exhibit 5. It is clear that Jinil Steel actually
received this notice package because its Accounting
Manager, Chun Young Hwa, asked some follow-up questions about the materials on January 4, 2017, some 60
days before the Bar Date. See Debtor’s Exhibit 7. Despite this, Jinil Steel did not file a proof of claim until
March 6, 2018, about a year after the Bar Date. See Jinil
Steel Exhibit A. Jinil Steel also did not seek to extend
the time for filing a proof of claim until about 90 days af-

19a
ter it was told its claim was untimely. See Debtor’s Exhibit 14.
Jinil Steel relies heavily on the fact that it is a Korean
company with non-English speaking employees. This position, however, is hurt by the e-mail correspondence of
John Kim (the 30-something year old son of the owner of
Jinil Steel) and Chun Young Hwa (the aforementioned
Accounting Manager for Jinil Steel) with the Debtor’s
claims and noticing agent. These sets of e-mail correspondence were in English and show an awareness of the
notices that were sent to Jinil Steel and the fact that Jinil
Steel may have to take additional steps to assert a claim
against the Debtor.
Counsel for Jinil Steel also asserted that Jinil Steel did
not file a proof of claim initially because it was relying on
the proof of claim filed by Woo Sung Hitech, Ltd. (the
“Woo Sung POC”). The notion that Jinil Steel decided
not to file a timely proof of claim because of the Woo
Sung POC, however, is not supported by the evidence.
Mr. Lee, who was the primary person at Jinil Steel responsible for dealing with the claim against Valuepart,
was on personal leave from approximately October of
2016 through February of 2018. Given Mr. Lee’s absence, he could not have made a decision not to file a
proof of claim in reliance on the Woo Sung POC, and
there was no evidence that anyone else at Jinil Steel relied on the Woo Sung POC. The Pioneer factors weigh
against a finding of excusable neglect. Allowing a claim
in excess of $1.5 million will undoubtedly prejudice the
Debtor and the other unsecured creditors. The delay of
roughly one year is a very long time for filing a tardy
claim, and allowing claims to be filed this far past the Bar
Date would have a significant effect on judicial proceedings. The reasons offered for the delay were not convincing and certainly were within the reasonable control of
Jinil Steel. Ultimately, there has not been a sufficient

20a
showing of excusable neglect.
IT IS THEREFORE ORDERED that the Motion is
DENIED.

21a
APPENDIX E
UNITED STATES BANKRUPTCY COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
————
Case No. 16-34169-HDH-11
————
IN RE VALUEPART, INC., DEBTOR.
————
(July 30, 2018)
————
Excerpts from Transcript of
Bankruptcy Court Hearing
THE COURT: Okay. Mr. Kim, you’re going to make
a statement, then Mr. Scannell you’ll get to go. Go
ahead.
MR. KIM (Jinil Steel’s counsel): Your Honor, I’ve
been in South Korea for about 15 years, like I said earlier.
Generally in South Korea, for a judicial and extrajudicial documents to be served to a party, it should first be
sent over to the Central Authority administered by the
Supreme Court of South Korea, which is a requirement
through the Hague Convention -- Hague Service Convention, it’s called the Convention the Service Abroad of Judicial and Extrajudicial Documents in Civil or Commercial Matters. South Korea is a signatory country of the
Convention, as well as the United States is also a signatory country of the Convention. And because of that requirement, South Korean authorities require the documents to be sent over to the Central Authority first,

22a
that’s the first requirement. And also require that any
English documents or any foreign language documents to
be translated into Korean language, which is the only official language in South Korea mainly because they don’t
understand any other languages. So this wasn’t done in
this case, and I’d just like to enlighten the Court about
that matter.
THE COURT: Thank you, Mr. Kim.
MR. SCANNELL (Valuepart’s Counsel): Thank you,
Your Honor.
***
Also on the service of process, under Rule 2002(p),
foreign entities or potential creditors with a foreign address are entitled to get service of the notice of claims
bar date by mail at least 30 days in advance. That’s exactly what happened here. We don’t have to follow the
Hague for service of a notice of claims bar date. The
Hague is for service of process for a lawsuit.
The Federal Rules of Bankruptcy Procedure specifically govern service of notice of claims bar date by first
class mail to entities with foreign addresses, that’s Federal Rule of Bankruptcy Procedure 2002(p). That s exactly what was done here.
On the second page, just past the middle, there’s a
boxed outlined in bold completely unambiguous, notice of
the claims bar date, March 7th, 2017. If you think you
have a claim, you have to file it by this date and, oh, by
the way, here’s where to send it, here’s how to do it. This
was sent via first class mail in compliance with the Federal Rules of Bankruptcy Procedure as per the claims
agent’s sworn testimony. That completely complies with
Federal Rules of Bankruptcy Procedure 2002(p). Service
is not an issue in this. The Hague, that’s a complete nonstarter.
***

23a
THE COURT: Do you have anything that you’d like to
say, or you can wait until Mr. Scannell -MR. KIM: Honor, other than the fact that in Korea,
when judicial documents are even on -- not on service of
process, they’re translated into Korean language for the
understanding of the authorities, as well as the party or
the debtor that these document has -- is being served.
THE COURT: Thank you.

